( DOE F 135.8
 (08-93)
 United States Goverment                                                                 Department of Energy


  Memorandum
           DATE:   July 9,2007                                  Audit Report Number: OAS-L-07-14
      REPLY TO
       ATTN OF:    IG-34 (A07FN008)
       SUBJECT:    Report on "Agreed-Upon Procedures for Federal Payroll"
            TO:    Director, Office of Human Capital Management, HR-1
                   Director, Policy and Internal Controls Management, NA-66

                   INTRODUCTION AND OBJECTIVE

                   The Office of Management and Budget (OMB) Bulletin No. 06-03 (Bulletin),
                   "Audit Requirements for Federal Financial Statements," dated August--23r2006, -
                   requires an annual audit of civilian payroll of executive departments and other
                   government agencies. Auditors are required to follow the agreed-upon procedures
                   in Appendix I-1 of the Bulletin, to assess. the reasonableness of life insurance,
                   health benefits, and retirement withholdings and contributions.

                   In Fiscal Year 2007, the Department of Energy (Department) used the Defense
                   Finance and Accounting Service to process its payroll. For this audit of civilian
                   payroll, the Department of Defense (DoD) Office of Inspector General (OIG) is
                   the principal auditor. Our office performed the agreed-upon procedures under a
                   Memorandum of Understanding with the DoD OIG. The purpose of this audit
                   was to determine whether life insurance, health benefits, and retirement
                   withholdings and contributions for selected Department employees were
                   reasonable and accurate.

                   CONCLUSIONS AND OBSERVATIONS

                   For the most part, the life insurance, health benefits, and retirement withholdings
                   and contributions for our sample of 45 employees were reasonable and accurate.
                   However, our review disclosed two errors. First, due to an administrative error by
                   the National Nuclear Security Administration (NNSA), one employee's
                   withholding for life insurance under the Federal Employees' Group Life Insurance
                   program was inaccurate. In addition, as a result of an administrative error by the
                   Headquarters Human Resources Operations Division, one Energy Efficiency &
                   Renewable Energy employee's withholding for health insurance under the Federal
                   Employees Health Benefit program was inaccurate.

                   We referred the NNSA error to the Human Resource Manager, NNSA Office of
                   Human Capital Management Services and the Headquarters error to the Director,
                   Headquarters Human Resources Operations Division, both of whom indicated that
                   the errors would be corrected.
No recommendations or suggestions are being made and a response to this report
is not required. We appreciate the cooperation of your staff during our review.




                                    Rickey R. Hass
                                    Assistant Inspector General
                                      for Financial, Technology and Corporate Audits
                                    Office of Audit Services
                                    Office of Inspector General

Attachment

cc: Audit Liaison, Office of Management, Budget and Evaluation, CF-12




                               2
                                         *        **.    --   . ..    .   .   LArL    .    UUi
                                                                                            4 4 .7 • R.- :




                                                                              Attachment

SCOPE AND METHODOLGY

We reviewed amounts withheld and contributed by Department employees for the
pay period ending October 28, 2006, in accordance with procedures under the
Memorandum of Understanding with the DoD OIG and steps 2 through 4 in
Appendix I-1 of OMB Bulletin No. 06-03. The audit was performed from
February to May, 2007 at program offices in Germantown, Maryland and
Washington, D.C.

To accomplish the audit objective, we:

   *   Obtained a random sample of 45 Department employees from the DoD
       OIG, of which 25 had retirement, health benefits and life insurance; 10 had
       no health benefits; and 10 had no life insurance;

   *   Reviewed OMB Bulletin No.06-03 "Audit Requirements for Federal
       Financial Statements," Appendix I-1 Agreed-Upon Procedures;

   *   Contacted the responsible personnel official at each site to obtain copies of
       information in each enployee's Official Personnel File (OPF);

   *   Reviewed OPF's and obtained copies of employees' Notification of
       Personnel Action (SF-50); Health Benefit election form (SF-2809);
       Federal Employees' Group Life Insurance election form (SF-2817); and
       Thrift Saving Plan election form (TSP-1);

   *   Calculated gross pay, health benefits, life insurance, and retirement
       withholdings and contributions for accuracy;

   *   Analyzed each document to verify that employees' withholdings and
       contributions were consistent with Defense Finance and Accounting
       Service data;

   *   Analyzed each document for anomalies;

   *   Spoke with Human Resources Officers and Personnel Specialists
       responsible for maintaining OPF's at each site to request additional
       documents; and,

   *   Summarized our analysis of each of the 45 sample items and provided the
       results to the DoD OIG.

We conducted the audit in accordance with generally accepted Government
auditing standards for financial audits. Our test work was limited to the
procedures listed under the Memorandum of Understanding and contained in
Appendix I-1 of OMB Bulletin No. 06-03. Because our review was limited, it
*.iI   vi   fl   *.   .   0.   t   a   '   4Lu    -.-   tar   ns                              pi~   .   V*   . ;   . ..




                 would not necessarily have disclosed all internal control deficiencies that may
                 have existed at the time of our audit.

                 We discussed the issues in this report with NNSA and the Office of Human
                 Capital Management, on May 31, 2007.




                                                   2
